APPLICATION AND
SOLICITATION
DISCLOSURE
MASTERCARD

Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

MyPerks

9.99% to 18.00% , when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
MyPlan Secured

15.24%
This APR will vary with the market based on the Prime Rate.
MyPower

7.99% to 18.00%

, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
APR for Balance Transfers

MyPerks
0.00% Introductory APR for a period of 18 billing cycles.
After that, your APR will be 9.99% to 18.00% , based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
MyPlan Secured
15.24%
This APR will vary with the market based on the Prime Rate.
MyPower
2.99% Introductory APR for a period of 18 billing cycles.
After that, your APR will be 7.99% to 18.00% , based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.

SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

10428614-MXC10-P-1-020520 (MXC101-E)

APR for Cash Advances

MyPerks
11.99% to 18.00% , when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
MyPlan Secured
18.00%
This APR will vary with the market based on the Prime Rate.
MyPower
9.99% to 18.00% , when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.

How to Avoid Paying Interest on
Purchases
Minimum Interest Charge
For Credit Card Tips from the
Consumer Financial Protection Bureau
Fees
Annual Fee
- Annual Fee - MyPerks, MyPower
- Annual Fee - MyPlan Secured
Transaction Fees
- Balance Transfer Fee - MyPerks,
MyPlan Secured
- Balance Transfer Fee - MyPower
- Cash Advance Fee - MyPerks, MyPlan
Secured
- Cash Advance Fee - MyPower
- Foreign Transaction Fee - MyPerks,
MyPlan Secured
- Foreign Transaction Fee - MyPower
Penalty Fees
- Late Payment Fee - MyPerks, MyPlan
Secured
- Late Payment Fee - MyPower
- Returned Payment Fee - MyPerks,
MyPlan Secured
- Returned Payment Fee - MyPower

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.
If you are charged interest, the charge will be no less than $1.00.
To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

None
$25.00
$10.00 or 3.00% of the amount of each balance transfer, whichever is
greater
None
$10.00 or 3.00% of the amount of each cash advance, whichever is greater
(Maximum Fee: $100.00)
None
1.00% of each transaction in U.S. dollars
None
Up to $20.00
None
Up to $25.00
None

How We Will Calculate Your Balance:
We use a method called "average daily balance (including new purchases)."
Promotional Period for Introductory APR - MyPerks, MyPower:
The Introductory APR for balance transfers will apply to transactions posted to your account during the first 90 days
following the opening of your account.
Loss of Introductory APR:
We may end your Introductory APR for balance transfers and apply the prevailing non-introductory APR if you are 60 days
late in making a payment.
Minimum Interest Charge:
The minimum interest charge will be charged on any dollar amount.

SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

10428614-MXC10-P-1-020520 (MXC101-E)

Effective Date:
The information about the costs of the card described in this application is accurate as of: July 30, 2020
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
For California Borrowers, the MyPerks, MyPlan Secured and MyPower are secured credit cards. Credit extended
under this credit card account is secured by various personal property and money including, but not limited to:
(a) any goods you purchase with this account, (b) any shares you specifically pledge as collateral for this
account on a separate Pledge of Shares, (c) all shares you have in any individual or joint account with the Credit
Union excluding shares in an Individual Retirement Account or in any other account that would lose special tax
treatment under state or federal law, and (d) collateral securing other loans you have with the Credit Union
excluding dwellings. Notwithstanding the foregoing, you acknowledge and agree that during any periods when
you are a covered borrower under the Military Lending Act your credit card will be secured by any specific
Pledge of Shares you grant us but will not be secured by all shares you have in any individual or joint account
with the Credit Union. For clarity, you will not be deemed a covered borrower if: (i) you establish your credit card
account when you are not a covered borrower; or (ii) you cease to be a covered borrower.
Other Fees & Disclosures:
Late Payment Fee - MyPerks, MyPlan Secured:
$20.00 or the amount of the required minimum payment, whichever is less, if you are 25 or more days late in making a
payment.
Annual Fee - MyPlan Secured:
$25.00.
Balance Transfer Fee (Finance Charge) - MyPerks, MyPlan Secured:
$10.00 or 3.00% of the amount of each balance transfer, whichever is greater.
Cash Advance Fee (Finance Charge) - MyPerks, MyPlan Secured:
$10.00 or 3.00% of the amount of each cash advance, whichever is greater, however, the fee will never exceed $100.00.
Returned Payment Fee - MyPerks, MyPlan Secured:
$25.00 or the amount of the required minimum payment, whichever is less.
Document Copy Fee - MyPerks, MyPlan Secured:
$12.00 per document.
Document Copy Fee - MyPower:
None.
Rush Fee - MyPerks, MyPlan Secured:
$25.00 second day.
Rush Fee - MyPower:
None.
Statement Copy Fee - MyPerks, MyPlan Secured:
$2.00 per document.
Statement Copy Fee - MyPower:
None.

Mastercard and the Mastercard Brand Mark are registered trademarks of Mastercard International Incorporated.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

10428614-MXC10-P-1-020520 (MXC101-E)

